Follow-up Review of OIG Audit Report No. 08-01: Audit
   of the Process of Safeguarding and Accounting for
             Presidential Library Artifacts


             OIG Audit Report No. 12-10


                September 13, 2012
                                                                                               OIG Audit Report No. 12-10




Table of Contents



Executive Summary ........................................................................................ 3


Background ..................................................................................................... 4


Objectives, Scope, Methodology .................................................................... 6


Audit Results ................................................................................................... 8


Appendix A – Table 8: Percent of V/V Artifacts Photographed ..…..….....31


Appendix B – Exhibit 1: Preservation and Curatorial Ranking .................. 32


Appendix C – Acronyms and Abreviations .................................................. 36


Appendix D – Management’s Response to the Report................................. 37


Appendix C – Report Distribution List......................................................... 38





                                                             2

                                                                             OIG Audit Report No. 12-10



Executive Summary

In October 2007 the Office of Inspector General (OIG) issued OIG Audit Report 08-01 entitled
Audit of the Process of Safeguarding and Accounting for Presidential Library Artifacts. The
report identified material deficiencies in the cataloguing, storage and protection of artifacts held
by the National Archives and Records Administration (NARA). NARA management concurred
with all five audit recommendations and presented an Action Plan. In this follow-up audit we
identified that while some improvements have occurred, gifts from foreign heads of state,
luminaries and common citizens continue to be at risk of loss or theft. The cause of this
condition is multi-faceted and can best be attributed to a lack of resources, failure to adopt and
deploy a cross-library automated inventory system, and a lack of effective planning and setting
of priorities to ensure all Presidential Libraries complete timely inventories of museum artifacts.

In addition, during the conduct of this follow-up audit we identified seven additional issues that
warrant corrective action: (1) newly established time-lines for completing artifact inventories do
not promote efficient or timely completion of the inventory process including prompt
identification of missing or lost artifacts; (2) discrepancies between completed physical
inventories and legacy documentation have not been adequately resolved; (3) Office of
Presidential Libraries (LP) does not have sufficient controls to ensure an adequate separation of
duties over the accounting for artifacts; (4) management controls over valuable and vulnerable
(V/V) artifacts need to be strengthened; (5) controls to safeguard incumbent Presidential artifacts
placed in courtesy storage need improvement; (6) physical security and other management
controls need improvement at the five Presidential Libraries visited; and (7) museum policies
need updating.

This report contains eight recommendations for action necessary to address the findings
identified in this report and to assist management in improving program stewardship and
mitigating the ongoing material weakness.




                                                 3

                                                                                         OIG Audit Report No. 12-10



Background

The NARA Presidential Library system is comprised of a network of thirteen Presidential
Libraries nationwide. This network of libraries is administered by the Office of Presidential
Libraries (LP), under Legislative Archives, Presidential Libraries, and Museum Services (L) a
part of NARA located in College Park, MD. These are not traditional libraries, but rather
repositories for preserving and making available historical materials (e.g., papers, records,
artifacts) of U.S. Presidents since Herbert Hoover. Presidential Libraries and Museums, and
their holdings, belong to the American people. Among the holdings entrusted to these libraries
are approximately 574,000 artifacts comprised of gifts from foreign heads of state, luminaries,
and common citizens. The gifts range from high-value items including firearms, jewelry, works
of art, coins and currency; to low-value items including t-shirts, trinkets and other curiosities.
After the President leaves office, the Archivist of the United States assumes custody of the
records and gifts 1 and LP museum staff is assigned responsibility for preserving and exhibiting
the records and gifts to promote public understanding of the Presidential administration, the
history of the period, and the career of the President.

OIG Audit Report 08-01 entitled Audit of the Process of Safeguarding and Accounting for
Presidential Library Artifacts dated October 2007 was performed at the request of United States
Senator Charles Grassley’s office to determine whether the process of accounting for and
safeguarding Presidential Library artifacts was adequate. The audit revealed that (a) NARA was
not accounting for artifacts in a timely manner, (b) technical and management controls over the
automated (collections database) used by NARA to manage its collections needed to be
strengthened, (c) opportunities existed to de-accession items that did not warrant long-term
retention and drain scarce resources from higher-priority artifacts, (d) some artifacts were not
maintained in appropriate space, and (e) NARA did not have a comprehensive list identifying “at
risk” artifacts in need of preservation. Additionally, the audit revealed that while control
weaknesses varied by library, there was a near universal breakdown in controls at the Ronald
Reagan Library which resulted in the library’s inability to adequately account for and safeguard
its museum collections.

OIG Audit Report 08-01 contained five recommendations, some containing sub-
recommendations to help NARA better account for, safeguard, and preserve artifacts entrusted to
NARA. The identified findings in OIG Audit report 08-01 resulted in the artifact collection
program designation as a material weakness. Management concurred with the report findings
and presented an Action Plan for OIG Report 08-01 in December 2007 to address the
recommendations. The Fiscal Year (FY) 2010 Management Assurance Statement from LP
reported significant progress on the Action Plan for OIG Report 08-01 and proposed closing the
material weakness related to the artifact collections program at the end of FY2011. The FY 2010
Management Assurance Statement stated that LP made “significant progress during 2010 on the
fourteen items outlined in the December 2007 Action Plan for the OIG Report 08-01” and that
FY 2008 and 2009 was devoted to (1) implementing customized inventory projects at the

1
 The basic statutory authorities governing NARA’s acceptance authority for presidential gifts and other artifact
materials are 44 U.S.C. 2101, 44 U.S.C. 2111, 44 U.S.C. 2112, and 44 U.S.C. 2201.


                                                         4

                                                                                        OIG Audit Report No. 12-10



libraries, and (2) developing comprehensive working guidance and standards. More detailed
descriptions of LP’s accomplishments were stated on their FY 2011 Management Assurance
Statement including: (1) new staffing requirements associated with completion of the V/V
inventories, (2) discussions on drafted guidelines for a library collections policy and artifact de­
accession/disposal guidance are taking place working towards finalization of these policies, (3)
purchase of a replacement collections management database, (4) policies for data standards and
digital photography were issued in FY 2008, (5) needs for photography equipment, hardware,
staffing and training were identified and purchased in FY 2008, and (6) strategies for a
comprehensive artifact risk assessment program for rating preservation needs for library artifacts
was completed in FY 2009.




Objectives, Scope, Methodology

The primary objective of the audit was to follow-up on NARA’s efforts to implement the five
recommendations contained in OIG Audit Report 08-01 entitled Audit of the Process of
Safeguarding and Accounting for Presidential Library Artifacts, to determine whether actions
taken by management resulted in a sufficient management control environment to safeguard and
account for library artifacts. Additionally, as part of the review we sought to determine whether
management controls over Presidential artifacts placed in temporary storage (pending permanent
placement at the George W. Bush Presidential Library) and in courtesy storage for President
Obama, the incumbent President, are sufficient. The review was conducted at Archives II in
College Park, MD, and Archives I in Washington, D.C., with representatives of the Office of
Presidential Libraries (LP), Preservation Programs (RX), and Security Management (BX). We
visited five Presidential Libraries and museums—Ronald Reagan Library (LP-RR), George W.
Bush Library (LPGWB), Richard Nixon Library (LP-RN), Dwight D. Eisenhower Library (LP­
DDE), and Jimmy Carter Library (LP-JC). Additionally, we discussed procedures for courtesy
storage 2 of Barack Obama Presidential gifts with the Presidential Materials (LM) at Archives I in
Washington, D.C.

To accomplish our objectives we:

    •	 Reviewed previous Audit Report 08-01, entitled Audit of the Process of Safeguarding
       and Accounting for Presidential Library Artifacts, and corresponding work paper files
       and Management Letter 08-12, entitled Update on Conditions of the Museum Collection
       at the Ronald Reagan Presidential Library, dated October 2007 and August 2008
       respectively.

    •	 Reviewed documentation prepared and submitted by LP of work completed in relation to
       the recommendations outlined in Audit Report 08-01.

2
  Courtesy storage procedures were not tested-- our review of processes and procedures was limited to personnel
interviews and a mock White House pick-up.


                                                        5

                                                                           OIG Audit Report No. 12-10




   •	 Reviewed applicable NARA policies, procedures, and other documents related to
      collections inventory controls including Guidelines and Procedures for Inventory of
      Presidential Libraries Museum Artifacts (Final version dated September 2010) and
      Guidelines and Procedures for De-Accession and Disposal of Presidential Library
      Museum Artifacts (Draft version dated September 2010).

   •	 Performed limited tests of inventory records at the five libraries. This limited testing of
      inventory records was used to assess the adequacy of management controls over the
      inventory process.

   •	 Interviewed personnel from Office of Presidential Libraries (LP), Presidential Materials
      (LM), Preservation Programs (RX), Security Management (BX), Ronald Reagan Library
      (LP-RR), George W. Bush Library (LPGWB), Richard Nixon Library (LP-RN), Dwight
      D. Eisenhower Library (LP-DDE), and Jimmy Carter Library (LP-JC).

Our audit was performed at Archives I, Archives II and at the Presidential Library locations
identified above between January 2011 and August 2011. We conducted this performance audit
in accordance with generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                                6

                                                                                                              OIG Audit Report No. 12-10



    Audit Results



    1. Recommendations from Prior Audit have not been Completed
    Actions necessary to correct the material weakness and fully address recommendations identified
    in OIG Report No. 08-01: Audit of the Process of Safeguarding and Accounting for Presidential
    Library Artifacts (October 2007), have not been completed. We found over half of our initial
    recommendations have not been remedied. This condition was caused by a lack of effective
    planning, other competing priorities, and a lack of sufficient resources. Government
    Accountability Office (GAO) Standards for Internal Control in the Federal Government state
    effective internal controls include the procedures used to provide reasonable assurance
    resources/assets are adequately safeguarded and efficiently used and ensure transactions and
    events are promptly and accurately recorded so as to maintain their relevance to management in
    controlling operations and making decisions. LP continues to be unable to adequately ensure
    Presidential artifacts are properly accounted for and safeguarded.
    Four years after the issuance of our report, we found nine of the fourteen sub-recommendations
    have not been completed. Table 1 below documents the nine open recommendations, delineates
    why the recommendations are still open and describes actions necessary to close the open
    recommendations.


Table 1: Status of Recommendations
Recommendations from
Audit Report #08-01                          Reason Finding is Open/Action Necessary to Close

The Assistant Archivist for LP
should ensure:
                                             Five Presidential Libraries have not completed their base-line inventory. Three libraries estimate
#1a. Libraries perform an initial physical   completion by 09/30/2013; the other two libraries may not be able to complete the inventory by
inventory of their entire collection         09/30/2013. This recommendation will remain open until all libraries have completed their base-line
within a reasonable time.                    inventory. See finding #2 for further discussion.

#1b. Results of completed physical
inventory are transmitted to LP and          Five libraries have not completed their base-line inventory and; thus, cannot transmit results to LP to
appropriately secured to serve as            serve as a master copy. While LP has developed a procedure to capture and secure inventory data on an
control or master copies establishing a      annual basis this recommendation will remain open until all libraries have submitted the results of a
reliable baseline for each library's         completed base-line inventory.
museum collection.

#1c. Results of the completed physical
inventory are compared against legacy        Five libraries have not compared a completed physical inventory against legacy documentation. Seven
documentation about the collection in        libraries have completed a comparison and identified discrepancies (anomalies) but have numerous
order to identify any discrepancies, and     unresolved anomalies. This recommendation will remain open until all libraries have completed legacy
undertake to satisfactorily resolve these    reconciliation and resolved the identified discrepancies. See finding #3 for further discussion.
discrepancies.




                                                                       7

                                                                                                                  OIG Audit Report No. 12-10



Table 1 (cont.): Status of Recommendations
Recommendations from
Audit Report #08-01                          Reason Finding is Open/Action Necessary to Close
#1d. Once an initial physical inventory      LP has submitted guidance whereby non-V/Vs are re-inventoried in a timelier manner; however, the new
                                 3
has been completed, non-V/Vs are re-         policy delays the re-inventory process seven to ten years for libraries with larger collections. Only three
inventoried in a timelier manner than        of thirteen libraries would be required to re-inventory every five years—a more appropriate time-line.
the current 5 percent or 1,000 items         This recommendation will remain open until all libraries are on a five year cycle or an analysis has been
annually.                                    completed to indicate that the current guidance is appropriate. See finding #2 for further discussion.


                                             LP’s collections database does not have the capability to create audit logs for deleted records. LP
                                             management has approved funding for a replacement system. A Request for Quote (RFQ) was posted
#2a. Records deleted from the
                                             July 6, 2011 and LP anticipates the roll out to all library sites by January 2013. In the interim, LP has not
collections database are identified,
                                             developed processes to ensure artifact records deleted from the collections database are appropriately
reviewed, and verified by an individual
                                             recorded. Thus, an intentional removal of an artifact record to conceal a theft is possible. An interim
not directly associated with the
                                             system can be developed by assigning deletion rights to someone other than museum staff—this will
management of the collection; and,
                                             force use of a deletion request process that can be documented. The recommendation will remain open
records of such actions are maintained
                                             until an interim process to control record deletions is developed or the new artifact database is fully
and available for review.
                                             operational.


#2c. Policy and standards are developed
                                             Very little progress has been made to photograph Presidential Library artifacts. While LP has developed
for linking digital images of items to                                                                                                             4
                                             policies and standards for linking digital images of their collection only 26 percent of V/V artifacts have
their record in the collections database,
                                             been digitally photographed. Only two of the twelve libraries have photographed their V/V artifact. This
giving priority to photographing V/Vs
                                             recommendation will remain open until all V/V artifacts and artifacts on loan have been photographed
and outgoing loan items.
                                             and plans to photograph the remaining collections have been developed.



#3. Develop detailed policy and              The draft de-accession policy entitled, Guidelines and Procedures for De-Accession and Disposal of
procedures for de-accessioning artifacts,    Presidential Library Museum Artifacts, has not been finalized. The draft was completed September 2010
ensure collections are reviewed, and         and submitted to LP and NGC for comment. Since the issuance of Audit Report #08-01, 12,017 (2%) de-
determine if digitization of de-             accession candidates have been identified from a collection surpassing 574,000 items. This
accessioned items is warranted.              recommendation will remain open until the draft is issued in final.

#5b. The Reagan Library (LP-RR)
                                             The Reagan Library has identified over 1,700 discrepancies (anomalies), but has not resolved these
compares the results of the physical
                                             discrepancies. The recommendation will remain open until the Reagan Library has taken appropriate
inventory to the White House Gift Unit
                                             action to resolve the 1,700 anomalies. See finding #3 below for further discussion.
database, or similar index, to identify
discrepancies and undertake to
adequately resolve these discrepancies.

#5d. The Reagan Library procures
                                             LP has not procured storage hardware for LP-RR that is appropriate for the type of artifact and to better
storage hardware that is appropriate for
                                             configure the museum storage area in order to minimize damage to the artifacts and improve the ease
both the type of artifact and the fact the
                                             of access to them. LP has installed seismic mitigation on existing museum storage equipment (shelves
library is in a seismic zone and better
                                             have been braced and netting has been installed over open shelves). A comprehensive storage study
configure the museum storage area in
                                             was completed in November 2010 with an estimated cost for re-configuration of the museum storage
order to minimize damage to the
                                             area and new storage hardware at $2.8 million. This recommendation will remain open until storage
artifacts and improve the ease of access
                                             hardware has been procured and installed for the Reagan Library.
to them.




    3
     Valuable/vulnerable artifacts merit additional care and are identified as artifacts with (1) high intrinsic and/or
    monetary value; (2) artifacts that are of high value and vulnerable; (3) firearms; and (4) artifacts confirmed as items
    under the Native American Graves Protection and Repatriation Act.
    4
     As of June 2012 44% of the V/V collection has been photographed (See Appendix A—Percent of V/V Collection
    Photographed.


                                                                         8

                                                                             OIG Audit Report No. 12-10



To address the findings in the initial report LP management created an Action Plan containing a
series of preliminary steps that needed to be accomplished before the recommendation could be
addressed. While LP completed most preliminary steps identified in their work-plan, necessary
action to correct the material weakness and satisfy the initial recommendations has not been
completed. The Museum Collections Officer stated some work plan deadlines were missed
because the deadlines were overly ambitious and there was a lack of understanding of the time
and work involved.

In a response to a request by LP, NARA provided eleven two-year term appointments to support
those libraries working on base-line inventories. After the two years, funding for these positions
transferred to LP who maintained only eight of the eleven term positions. LP requested the term
positions convert to permanent positions, but this request was denied. The library staff we
interviewed during this audit stated they are unable to complete inventory work timely because
they are working at full capacity to sustain the demands of operating a museum including duties
such as interchanging exhibits, addressing loan requests, and managing incoming acquisitions.
Further, the library directors we interviewed stated NARA has not fully recognized the staffing
needs of museum operations and would like to see NARA conduct staffing assessments and
assign more museum personnel so that inventories could be completed timely. Failure to
adequately support staffing levels necessary to implement an adequate system of management
controls increases the risk NARA will not be able to provide proper stewardship, which
diminishes access to the collections and increases vulnerability to loss or theft.


Recommendation 1
To correct recommendations identified in OIG Report No. 08-01 we recommend the Executive
for Legislative Archives, Presidential Libraries, and Museum Services (L) ensure:

    a.	 The remaining five libraries complete base-line inventories as expeditiously as possible
        with master copies forwarded to LP in order to complete Recommendations 1a and 1b
        from prior audit report OIG #08-01.

    b.	 The remaining five libraries performing base-line inventories complete legacy
        reconciliation to identify discrepancies as expeditiously as possible and all libraries with
        identified discrepancies take action to resolve the discrepancies in order to complete
        Recommendation 1c from prior audit report OIG #08-01.

    c.	 The Reagan Library (LP-RR) has taken all appropriate action to resolve the 1,700
        identified anomalies in order to complete Recommendation 5b from prior audit report
        OIG #08-01.

    d.	 The time-lapse between inventory cycles is completed in a timelier manner than the
        current guide of seven to ten years for libraries with larger collections or an analysis has
        been completed to indicate that the current guidance is appropriate in order to complete
        Recommendation 1d from prior audit report OIG #08-01 (see Recommendation 2
        below).



                                                 9

                                                                                        OIG Audit Report No. 12-10



     e.	 Interim steps are developed to document and monitor deleted records from the current
         collections database system or a replacement database is implemented in order to
         complete Recommendation 2a from prior audit report OIG #08-01. Specifically, a
         manual system of recording deleted records should be developed and deletion rights to
         the collections database system should be assigned to personnel other than the museum
         staff.

     f.	 Photographs of all V/V artifacts and artifacts on loan are completed and all libraries
         establish plans to photograph their remaining collection in order to complete
         Recommendation 2c from prior audit report OIG #08-01.

     g.	 The detailed policies and procedures for de-accessioning artifacts are finalized in order
         to complete Recommendation 3 from prior audit report OIG #08-01.

     h.	 Appropriate storage hardware for the Reagan Library is procured and installed in order to
         complete Recommendation 5d from prior audit report OIG #08-01.

Management Response

Management concurred with the recommendation.



2. New Time-Guidance for Completing Artifact Inventories does
not Ensure Timely Processing and Identification of Lost/Missing
Artifacts

New time-lines for completing the base-line inventory and re-inventory 5 of artifacts did not
ensure (1) the inventory process was completed as timely as possible and (2) lost or missing
artifacts are identified as soon as possible. This condition exists because management officials
have not implemented effective management controls whereby timely completion of artifact
inventories was made a top priority. The American Association of Museums (AAM) states:
“First and foremost, an accurate inventory of a museum’s collections underpins its fiduciary
imperative to hold its collections for the public trust.” Further, GAO Standards for Internal
Control in the Federal Government state the internal controls used to safeguard assets should be
designed to provide reasonable assurance there is prompt detection of unauthorized disposition
of an agency’s assets. Delays in completing the inventory process increases the vulnerability of
NARA’s Presidential artifact collections to loss and theft. Likewise, artifacts which are
deteriorating may not be identified in a timely manner to allow remediation.


5
  Re-inventories are ongoing, cyclical work processes maintained by all Presidential Libraries once a base-line
inventory of the permanent artifact collection is completed. Re-inventories assure a periodic location and condition
check of the entire collection. OIG Report 08-01 recommended (Recommendation #1d) once an initial base-line
inventory has been completed, non-V/V artifacts should be re-inventoried more frequently than five percent or 1,000
items annually.


                                                        10

                                                                                            OIG Audit Report No. 12-10



LP established the following time guidance regarding base-line and re-inventory processes after
the issuance of OIG Report #08-01 mandating timely inventory completion: (1) Presidential
Libraries that had not completed a base-line inventory were given an additional six years to
complete the inventory, (2) newly established Presidential Libraries were allotted five years to
complete base-line inventories instead of requiring an immediate inventory, and (3) Presidential
Libraries with larger collections were allowed seven to ten years to complete a re-inventory
process.

Currently, LP does not recognize an item as missing, lost, or possibly stolen in a timely manner.
Using newly established inventory and re-inventory guidelines, it is possible for a stolen artifact
to remain undetected or officially reported as lost for years. Thus, the process of looking for and
investigating a missing or lost artifact is more difficult, and the likelihood of finding these items
remote.

During the course of the audit we asked how the new timeline guidance was developed and what
factors were considered. The Museum Collections Officer stated the former Deputy Archivist
established the inventory time guidelines and she is unsure how the time guidance was derived,
but that it was not based on any official study or staffing assessment. Without the completion of
staffing assessments or inventory process time studies LP may not have appropriately researched
the possibility that the inventory process could be completed more timely. We found several
examples where libraries have been able to complete the inventory task in a much shorter time
frame. Table 2 below shows that five of the seven libraries with completed inventories report the
inventory process took three- and- a -half years or less.

For example, the Reagan Presidential Library (LP-RR) completed their base-line inventory in
eighteen months 6. With two teams of two, LP-RR completed the following: (1) a base-line
inventory including a reconciliation of the completed inventory to White House legacy
documents; (2) assessments and documentation of curatorial and preservation rankings 7; (3)
photography of all V/V artifacts; and (4) a final narrative inventory report that described the
inventory process and findings. One of the key attributes to a successful and efficient inventory,
according to the LP-RR Registrar, is to complete the task as a concentrated effort by avoiding
continual starts and stops.




        Table 2: Inventory Time Intervals for Libraries with Completed

6
 The eighteen month time frame does not include pre-inventory planning phase of the base-line inventory project.
7
 The artifact risk assessment process used by LP uses a decision matrix to determine preservation needs and to
prioritize preservation work. The level of risk is determined by assessing and ranking both the condition
(preservation ranking) of the artifact and the curatorial value (curatorial/use priority) of the artifact. See Appendix B
Preservation and Curatorial Rankings.


                                                           11

                                                                                      OIG Audit Report No. 12-10



       Base-line Inventories 8

       Library          Date           Approximate Inventory Time                     # of Staff
                        Inventory      # of Artifacts Interval                        Dedicated to
                        Complete                                                      Inventory
                                                                                      Project
       Hoover            1996             15,321               approx. 3 years        Not known
       Roosevelt         2008             34,439                  3.5 years           Not known
       Truman            1985             27,516                approx. 1 year        3-4 staff
       Eisenhower        2006             50,515             20 yrs. at 5% per yr.    Not known
       Kennedy           2004             27,899                approx. 1 year        Not known
       Ford              2008             18,224                 Not known            Not known
       Reagan            2010             62,317                  1.5 years           4 staff


The library directors we interviewed stated they did not have dedicated staff to apply solely to
inventory work, and other duties associated with operating a museum interrupts and delays the
inventory process. Further, library personnel we interviewed believe NARA senior officials
have not fully recognized the resources needed to operate a museum and suggested (1) LP
complete staffing assessments and request more resources for libraries with larger collections
and (2) the use of volunteers and interns as a method for increasing staffing resources during
inventory cycles. Additionally, the Eisenhower Curator stated they would like to see LP adopt a
plan to fund college interns for the collection photography project. In addition to the use of
temporary positions, interns, and volunteers, LP should consider developing a specialized
inventory team that travels on a rotating basis to libraries working on artifact inventories.

 Libraries were given an additional six years to complete their baseline inventories: OIG Report
#08-01 identified seven Presidential libraries with incomplete base-line inventories. In response
to OIG Report #08-01, dated October 2007, LP directed the seven libraries (see Table 3 below)
to complete an inventory work plan by October 15, 2008 and then allotted five more years to
complete the actual inventory process by establishing a deadline of 09/30/2013. Only two 9 of
the seven libraries have completed the base-line inventory since the issuance of OIG Report # 8­
01. Of the five libraries still working on their inventory three libraries expect to complete their
base-line inventory within LP’s established six year time frame and two libraries (Nixon and
Carter) may not be able to complete their base-line inventory by 09/30/2013. Library managers
interviewed at the Nixon and Carter Libraries state a lack of resources and competing priorities
have caused additional delays and they did not know when the base-line inventories would be
completed.




8
  The data was extracted from the Re-Inventory Plans submitted, not all libraries gave the same level of details.
9
  OIG Report #08-01 disclosed that the Franklin D. Roosevelt Library (LP-FDR) anticipated completion of its base­
line inventory in 2008 and LP-FDR did complete their base-line audit as projected. The Ronald Reagan Library also
completed its base-line inventory since the issuance of OIG Report #08-01.


                                                       12

                                                                                          OIG Audit Report No. 12-10




Table 3 10: Progress to Date for the Seven Libraries Identified in Audit Report #08-01
Working on their Base-line Inventory

Library	      Date           Approximate #       % Complete with       Date of Completion or        Years Taken to
              Library        of Artifacts        Base-line             Projected Date of            Complete Base-
              Opened                             Inventory             Completion                   line Inventory
Roosevelt       1941            34,339                 100%	           2008                         67 years 11
Johnson         1971            54,917           Physical Inventory    Projected 09/30/2013         Approx. 42 years

                                                     complete

Nixon           1975 12         27,299                   90%           Unlikely to meet             Approx. 38-plus

                                                                       09/30/2013 deadline 13       years
Carter          1986            48,000                   77%	          Unlikely to meet             Approx. 27-plus
                                                                       09/30/2013 deadline 14       years
Reagan          1991            62,317                  100%           2010                         19 years
Bush (41)       1997            58,000                   79%           Projected 09/30/2013         Approx. 16 years
Clinton         2004           100,000                   86%           Projected 09/30/2013         Approx. 9 years
TOTAL	                         384,972



Newly established Presidential Libraries have five years to complete a base-line inventory:
Rather than requiring an immediate base-line inventory for a newly established Presidential
Library, LP has established a five year time frame for completion. The initial base-line is not
completed in five years; rather, the initial base-line is completed in five years plus the time it
takes to construct a Presidential Library. For example, (LP-GWB) will officially open to the
public in 2013 and the base-line inventory is projected to be completed five years later in 2018;
while, the Presidential artifacts have been in temporary storage since 2009. Therefore, any
unauthorized disposition (lost or stolen artifacts) may not be detected for nine years.

Libraries with larger collections are allowed seven to ten years to complete their re-inventory
cycle: The re-inventory cycles are based on the size of the libraries’ collection, whereby libraries
with (1) over 50,000 items in their collection have ten years to complete a re-inventory; (2)
collections greater than 25,000 but less than 50,000 have seven-eight years; and (3) collections
under 25,000 are allotted five years. Thus, libraries with larger collections are at greater risk for

10
   Table 3 was updated to reflect data received as of June 2012 which was outside the time parameters for fieldwork.
11
   During the prior audit a questionnaire completed by the LP-FDR Curator and Registrar reported that LP-FDR had
not completed a 100% inventory; however, LP maintains that some semblance of inventory work was completed in
1978.
12
   The private Nixon Library opened July 19, 1990, with an addition added in August of 2004. Sometime in 1975 a
repository began at the Pacific Southwest Regional Archives at Laguna Niguel—it included deeded and undeeded
material. The Laguna Niguel collection was transferred to the Nixon Library under an interim operating agreement
in August of 2006 in anticipation of the Nixon Library becoming a federal facility.
13
   The Nixon Library updated their inventory plan (November 2011) and re-prioritized the task list to meet the
September 2013 deadline. The Nixon Library will postpone the item-level inventory of its Yorba Linda artifacts
(approximately 800 artifacts) until the next re-inventory cycle. The postponement is based on: (1) these artifacts
have not yet been deeded to NARA and (2) Nixon Library personnel believe there is sufficient control over the box
storage of these artifacts.
14
   LP has re-funded term hire positions at the Carter Library and believes the Carter Library will be able to meet the
September 2013 deadline.


                                                         13

                                                                              OIG Audit Report No. 12-10



the loss or theft of items because they are re-inventoried less frequently. Of the thirteen libraries,
only three are required to re-inventory every five years (See Table 4 below). LP’s FY 2012
FMFIA Material Weakness Action Plan for Presidential Libraries Artifacts Inventory dated
January 2012, states the American Association of Museums (AAM) recommends a best practice
of 5-7 years for re-inventories of museum collections and recognizes that LP will be challenged
to meet this criteria for larger libraries with ten year re-inventory cycles.


    Table 4: Library Re-Inventory Cycle Schedule

    Library          Approximate        Date Base-line # of Years to         Date Re­
                     # of Artifacts     Completed      Complete Re-          Inventory Cycle
                                                       Inventory             will be Complete
    Hoover            15,321            1996           5 years               09/30/2013
    Roosevelt         34,439            2008           7-8 years             09/30/2016
    Truman            27,516            1985           7-8 years             09/30/2016
    Eisenhower        50,515            2006           10 years              09/30/2018
    Kennedy           27,899            2004           7-8 years             09/30/2016
    Ford              18,224            2008           5 years               09/30/2013
    Reagan            62,317            2010           10 years              09/30/2020
    Johnson           54,809            Not Complete 10 years                Not scheduled
    Nixon             27,171            Not Complete 7-8 years               Not scheduled
    Carter            40,634            Not Complete 7-8 years               Not scheduled
    Bush (41)         44,796            Not Complete 7-8 years               Not scheduled
    Clinton          128,792            Not Complete 10 years                Not scheduled
    Bush (43)         42,000            Not Complete 7-8 years               Not scheduled
    TOTALS           574,433



We acknowledge collections care must compete for scarce resources. Nonetheless, LP needs to
strengthen its stewardship by careful planning, setting of priorities, targeting allocations of
existing resources, and using contractors, interns, and other volunteers. LP, by allowing too
much time to complete the inventory process, promotes inefficiency as the inventory process is
constantly starting and stopping and cannot ensure Presidential artifacts are adequately protected
from loss, theft, or deterioration.


Recommendation 2
We recommend the Executive of Legislative Archives, Presidential Libraries, and Museum
Services (L):

    a)	 Develop and identify an appropriate staffing plan for museum operations. The staffing
        plan should (1) align with collection sizes, and life cycles, and (2) should include
        temporary staff or other staffing alternatives to support collection inventories and other


                                                 14

                                                                                        OIG Audit Report No. 12-10



         core collection work, and (3) should identify the planned inclusive time periods devoted
         to the collection inventory.

     b)	 Review and revise current time-guidance policy, as appropriate, for base-line inventories
         for newly established Presidential Libraries (see Recommendation 1c for re-inventory
         cycles).

Management Response

Management concurred with the recommendation.



3. Process for Resolving Discrepancies (Anomalies) Need
Improvement

While processes are in place to identify and document discrepancies, improvements to promptly
and systematically resolve anomalies needs to be addressed. This condition exists because LP
does not have clear, uniform guidance for identifying, mitigating, and monitoring the anomaly
process. GAO Standards for Internal Control in the Federal Government state effective internal
controls should ensure transactions and events are promptly and accurately recorded so as to
maintain their relevance to management in controlling operations and making decisions. As a
result of this condition NARA cannot ensure controls are adequate to identify and report missing
artifacts to ensure recovery/investigative efforts are initiated in a timely manner.

In response to OIG Report #08-01, LP requested the libraries prepare plans for reconciling
legacy records to the actual inventory for the purpose of identifying and documenting any
discrepancies (anomalies). Currently, the Presidential Libraries report 5,298 (see Table 5 below)
anomalies when comparing actual inventory records against legacy documentation. LP identifies
two sub-categories of anomalies: ‘not found’ anomalies 15 (2,810 or 53%) and ‘found in
collection’ (FIC) anomalies 16 (2,488 or 47%)—See Table 5 below. Objects with legacy records,
not found during the inventory process, are recorded as ‘not found’ or ‘found incomplete’ 17 and
represent anomalies in an interim status pending completion of research needed to either locate
the object or make a more definitive classification as either ‘missing’ or ‘partially missing.’

While LP has recently established guidance on how to manage anomalies, LP has not issued
appropriate guidance requiring prompt attention to resolve anomalies at the conclusion of an
inventory cycle. Rather, Presidential Libraries are encouraged to delay resolution over
subsequent inventory cycles. The Guidelines and Procedures for Inventory of Presidential

15
   ‘Not found’ anomalies where legacy records indicate the object is in the library’s custody, but no object can be

found to match.

16
   ‘Found in collection’ (FIC) anomalies where an object is found for which there is no matching legacy records.

17
   ‘Found incomplete’ describes an object where some components are found, but not all components. For example:

an object record describing a painting or photograph encased in a frame whereby the painting or photograph is

located, but the frame is not.



                                                        15

                                                                                          OIG Audit Report No. 12-10



Libraries Museum Artifacts dated September 2010 states “anomalies should be allowed to
remain on the books for one additional inventory cycle, at which time de-accessioning may be
pursued” and the loss of the item recognized. The Museum Collections Officer stated that some
items not found at the conclusion of an inventory cycle are found in subsequent inventory cycles
and as a result LP is hesitant to declare the loss of the missing item until a second inventory
cycle is completed. While libraries have reported finding missing items during a subsequent
inventory cycle, not all items have been found. Since many libraries are not directed to complete
the second re-inventory for another ten years many anomalies are not declared a loss timely.

Further, LP has not established clear policies for monitoring the progress for resolving anomalies
including establishment of reporting missing artifacts to the OIG and Holdings Protection Team
at the conclusion of an inventory cycle. The Guidelines and Procedures for Inventory of
Presidential Libraries Museum Artifacts dated September 2010 states “at the close of the
inventory cycle, LP will review all ‘not found’ and ‘missing’ items with the staff.” However, we
found LP had not completed or documented these reviews for those libraries with completed
base-line inventories and that these guidelines did not clarify governing oversight procedures
such as: (1) how or when these reviews will be conducted, (2) how the reviews will be
documented, (3) standard report formats whereby libraries are directed to report listed anomalies
in a useful and standardized manner to assist the review process including delineation of
curatorial values so that decisions regarding recovery efforts can be made, and (4) specific
reporting protocols whereby the OIG or Holdings Protection Team receive a listing of LP’s
missing artifacts at the conclusion of an inventory cycle.

While LP does monitor statistical data for anomalies, we found the statistical data did not
sufficiently provide adequate detail to ensure LP had necessary information to oversee the
progress on resolving anomalies. On a quarterly basis each Presidential Library reports to LP the
number of new anomalies discovered and the number of anomalies resolved. However, LP does
not request listings of outstanding anomalies including details delineating the curatorial value 18
or documentation of actions taken to resolve anomalies as an oversight measure.




18
  LP has six curatorial priority designations used to delineate the value of an artifact: (0) artifact needs more
research before a ranking can be assigned; (1) de-accession candidate; (2) low priority; (3) medium priority; (4) high
priority; and (5) highest priority. Curatorial ranking are based on values such as historic, cultural, monetary,
informational, intrinsic, and/or display value.


                                                         16

                                                                                          OIG Audit Report No. 12-10




Table 5: Summary of Current Anomalies

Library           Total Anomalies       Not Found        FIC Anomaly        Anomalies          Long-Standing
                     Reported           Anomaly                          Identified During      Anomalies 20
                                                                         Current Inventory
                                                                              Cycle 19
Hoover                  59                  59                 0                  2                  57
Roosevelt              267                 267                 0                  0                 267
Truman                 133                 133                 0                  4                 129
Eisenhower             183                 180                 3                 20                 163
Kennedy                127                 127                 0                 16                 111
Johnson                 20                  18                 2                 12                   8
Nixon                 1,262                814               448               1,262                  0
Ford                    57                  57                 0                  0                  57
Carter 21              n/a                 n/a               n/a                n/a                 n/a
Reagan                1,789                727              1,062              1,789                  0
Bush (41)              963                   0               963                963                   0
Clinton                438                 428                10                438                   0
TOTALS                5,298               2,810             2,488              4,506                792
Percentage            100%                53%               47%                85%                 15%


As part of this audit we requested each library provide a detailed listing of all anomalies
including a description of efforts taken to resolve the list of anomalies. Below are examples we
found which warrant better guidance for identifying, mitigating, and monitoring the anomaly
process.

     •	 We found 792 (15%) long-standing anomalies (See Table Five above). Most of the 792
        artifacts have been identified as anomalies for years with the Hoover’s dating back to
        1962. The Museum Collections Officer stated she was aware some of the older libraries
        were ready for a formal review of their anomaly list, but competing priorities hampered
        the progress. We found LP has not established detailed guidelines requiring an
        immediate review process after the completion of an inventory cycle. As a result, these
        long-standing anomalies represent potentially missing items that have not been
        investigated—the recovery of any of these items may now be remote.

     •	 The Reagan Library completed their base-line inventory (February 2010) and reported
        1,789 anomalies. Both the Reagan Registrar and museum Curator stated they would
        prefer to resolve as many of the 1,789 anomalies now rather than waiting for the second
        cycle of inventory—a process that will take another ten years. The museum Curator
19
   Statistics for the Current Inventory Cycle reflect inventories and reconciliations projects still in progress.
20
   Long-standing Anomalies reflect anomalies held over from previous inventories that are still under review.
21
   The Carter museum staff has not started the White House legacy documentation process concurrent with their
base-line inventory process and, thus, do not have any anomalies to report.


                                                         17

                                                                                           OIG Audit Report No. 12-10



          stated the base-line inventory performed at the Reagan Library was thorough and he
          doubted if any of the identified 1,789 anomalies would be resolved during the re-
          inventory cycle.

          Nearly sixty percent of the reported anomalies (1,062) are FIC anomalies that include
          very few items the Reagan Curator and Registrar were interested in adding to the
          Reagan Presidential artifact collection to include a George Foreman Grill box, ribbon,
          duplicate books, cards from citizens, and miscellaneous and unidentified pieces of
          plastic. Of the remaining 727 possible missing artifacts, 515 have been characterized as
          ‘partially missing’, ‘probably never received’,’ vague records’, or ‘possibly disposed of’
          and are comprised of low-value artifacts such a duplicate books, cards, newspaper
          articles, scrap books, or storage containers and would not be worthy of an intensive
          investigation or recovery program.

          The balance of 212 artifacts have been characterized as ‘missing’ because the Reagan
          Library has evidentiary documentation the items were received. The LP-RR Registrar
          identified at least three missing items 22 with high value whereby initiation of an
          investigation may be appropriate, but had not initiated an investigation because she was
          unsure of the process and had been instructed to conduct additional searching over the
          course of the next inventory cycle. LP has not developed guidance whereby an
          immediate review (following the completion of the Reagan inventory cycle) of all 212
          missing items was conducted to determine which artifacts warranted additional search
          efforts and at what level (i.e. investigation, immediate searching efforts, or no effort).
          Further, LP has not established procedures to forward a list of all identified missing
          objects to the OIG and Holdings Protection Team.

      •	 Per NARA practice a monetary value was not associated with the listed anomalies as the
         White House did not collect or record this data at the time the gift was received 23 and
         the libraries do not have a policy to solicit appraisals for Presidential artifacts.
         However, the John F. Kennedy Library (LP-JFK) provided the curatorial ranking on all
         anomalies 24 which provided valuable information management needs to assess whether
         there are any artifacts that need immediate attention. We found all other lists submitted
         by the libraries difficult to review because the descriptions of the artifacts do not always
         clearly indicate whether an artifact would have significant value warranting attention by
         the OIG Investigations or other immediate recovery efforts by library museum staff.
         The curatorial values will aid management in their ability to monitor where to focus
         resources necessary for recovering missing artifacts.

The primary purpose of reconciling legacy records against actual inventory of artifacts is to
identify missing items at the conclusion of the inventory process so appropriate action can be
22
   The three items identified by the LP-RR Registrar include: (1) Saddle Whip; (2) Signed Football; and a (3) Jade
Sculpture.
23
   The White House Gift Office started providing monetary values for gifts received some time during the Clinton
Presidency.
24
   LP-JFK reported 127 anomalies—112 (88%) are de-accession candidates or low priority artifacts, fourteen
medium priority artifacts and only one high priority artifact. LP-JFK did not report any highest priority artifacts as
potentially missing.


                                                          18

                                                                             OIG Audit Report No. 12-10



initiated to recover or find these items. As it stands, LP does not have an effective missing
artifact program and cannot assure missing artifacts are identified and reported so that timely
recovery efforts and write-offs of missing artifacts take place.


Recommendation 3
We recommend the Executive for Legislative Archives, Presidential Libraries, and Museum
Services (L):

    a)	 Clarify/develop guidance regarding the process for resolving and managing outstanding
        anomalies at the completion of the base-line inventory including procedures to report all
        missing artifacts to the OIG and Holdings Protection Team.

    b)	 Develop a format for reporting anomalies that includes a curatorial ranking or other
        characterization of open anomalies.

Management Response

Management concurred with the recommendation.




4. Library Registrar Duties Need to be Properly Controlled
Library Registrars have complete access and total control over the artifacts they manage; thus,
adequate separation of duties over museum collections does not exist. This condition exists
because of a lack of resources and a decision made by management to not institute internal
controls that segregate duties of the Library Registrar position. GAO Standards for Internal
Control in the Federal Government states key duties and responsibilities need to be divided or
segregated among different people to reduce the risk of error or fraud. Separating key duties
minimizes the risk of records being adjusted to mask theft or loss. Without proper separation of
duties over library collections, it is possible for an employee to take an artifact from the
collection and delete all records pertaining to the object.

As a function of their duties and limited staffing, Library Registrars have full access and control
over the physical artifacts in their facilities. Likewise, the Registrars have the capacity to
unilaterally edit/delete information in the automated collections database system that
records/tracks these holdings without an audit trail being established to record the action. Thus,
if a Registrar opted to take an artifact from the collection, they could simply cover up their action
by deleting the record of its existence. While there is no indication that this has occurred,
appropriate internal controls should be implemented to address this risk as would be expected for
any Federal institution which holds assets of high value. The current offsetting internal control
of having two independent library staffers conducting the physical inventory is an insufficient
measure to address and mitigate the risk defined above. While we recognize the challenges


                                                 19

                                                                            OIG Audit Report No. 12-10



faced by LP in separating duties we believe management controls such as independent
inventories, digitized holdings, placement of cameras in the V/V vault, requiring at least two
people in the V/V vault, and a reliable record keeping system that identifies deleted records can
compensate for LP’s inability to fully segregate museum artifact responsibilities. Further, LP
can identify different levels of separation of duties based on the value of the collections whereby
higher value collections may need full separation of duties and lower value collections may only
need an audit trail to track changes.


Recommendation 4
We recommend the Executive for Legislative Archives, Presidential Libraries, and Museum
Services (L) develop management controls to minimize the risks associated with a lack of
separations of duty over the safeguarding of Presidential artifacts.

Management Response

Management concurred with the recommendation.



5. Management Controls for Valuable and Vulnerable Artifacts
Need to be Further Strengthened
LP may not be adequately accounting for the most valued Presidential artifacts (valuable and
vulnerable (V/V). Specifically, we found (1) policy changes made to the definition of what
constitutes a V/V artifact were not clear and caused confusion, (2) LP has not provided guidance
on required documentation needed to support reported V/V inventory counts, and (3) LP has not
developed a defined monitoring program over the V/V inventory process to ensure the annual
V/V inventory counts are accurate. This condition existed because management did not
implement effective internal controls over the V/V artifacts. GAO Standards for Internal
Control in the Federal Government state effective internal controls include the procedures used
to provide reasonable assurance resources and assets are adequately safeguarded. As a result,
NARA’s most treasured artifacts are not properly accounted for increasing the vulnerability of
these valued artifacts to loss or theft.

Confusion Over Recent Policy Changes: Artifacts defined as V/Vs are to be afforded additional
levels of security and care. However, recent policy changes to the Presidential Libraries’ V/V
artifacts classification process caused confusion in one of the five libraries visited during the
audit over the determination of what artifacts are valuable and vulnerable and are provided
additional security and care. The purpose of the policy change was to narrow the definition by
which artifacts are ranked valuable and vulnerable in an effort to conserve resources devoted to
the protection of V/V artifacts. In a memo dated September 26, 2008 the former Assistant
Archivist of LP states substantial changes in policy regarding how the V/V artifacts are defined
will “(1) foster a more narrow, concentrated approach as to what artifacts are to be considered


                                                20

                                                                                      OIG Audit Report No. 12-10



‘valuable/vulnerable’ and afforded extra resources, and (2) give library staff the maximum
leeway in determining what items in their own collections should be included.” However, we
found the extra resources associated with the annual inventory process were not significant (see
Table 6 below). For example, the Roosevelt Presidential Library stated they were able to
inventory 1,153 V/V artifacts in 4.5 hours. Other libraries indicate the annual V/V inventory
takes only a few days to complete with an inventory team of two. Thus, it is not necessary for
LP to direct the libraries to cull their list of V/V artifacts to conserve resources associated with
the annual inventory process.

As a result of this guidance, at least one Presidential Library reduced their V/V listing of artifacts
significantly. The Carter Presidential Library went from a list of 273 V/V items to a listing of
only 23. The Carter Library Curator and Registrar stated they misunderstood the guidance and
thought they were instructed to remove all museum exhibit artifacts from the V/V list because
the new guidance stated an item’s V/V status was not dependent on its home location or
temporary location. They believed museum exhibit artifacts did not require an annual inventory
because any artifacts stolen while on public display would be noticed immediately. Both the
Carter Library Curator and Registrar stated they would like LP to clarify details on what
qualifies as a V/V artifact.


     Table 6: V/V Data Including Time to Complete a V/V Inventory
     Library        Approximate      Reported #    Percent of Total    Time to Complete        # of Staff
                    # of Artifacts   of V/V                            Inventory               Used during
                                     Artifacts                                                 Inventory
     Hoover          15,321            273         2%                  Data not provided       Two
     Roosevelt       34,439          1,153         3%                  4.5 hours               Three
     Truman          27,516          Missing       Not able to         Missing report
                                                   determine
     Eisenhower      50,515             772        1.5%                Completed in two days   Two
     Kennedy         27,899             182        Less than 1%        Completed in three      Two
                                                                       days
     Ford            18,224             228        1%	                 Data not provided       Two
     Reagan 25       62,317             495        Less than 1%	       Completed as part of    Five
                                                                       base-line inventory
     Johnson         54,809             382        Less than 1%        Completed in seven      Three
                                                                       days
     Nixon           27,171          Missing       Not able to         Missing report
                                                   determine
     Carter          40,634              23        Less than 1%        Data not provided       Data not
                                                                                               provided
     Bush (41)       44,796             391        Less than 1%        Completed in eight      Two
                                                                       days
     Clinton        128,792             194        Less than 1%	       Completed in three      Three
                                                                       days
     Bush (43)        42,000             94        Less than 1%	       Completed in one day    Three

     TOTALS          574,433          4,187        Less than 1%


25
     The FY 2009 Annual V/V report was used as the FY 2010 was not available.


                                                        21
                                                                            OIG Audit Report No. 12-10



LP Lacks Guidance on Required Documentation to Support V/V Inventory Reports: During our
audit visit to the Eisenhower Presidential Library (LP-DDE) we were unable to verify the
accuracy of the V/V Annual Inventory Report. This condition existed because LP-DDE did not
have sufficient documentation to verify the accuracy of their Annual V/V Inventory Report.
Specifically, we could not verify how the V/V total assets were counted because the support
listing of V/V assets was not numbered. Numbering the counting of an inventoried item is
important because some artifacts are composed of several items (for example a tea set). While
standardized counting practices have been identified, this does not guarantee that inventory is
counted correctly. The recently appointed Curator of the Eisenhower Presidential Library and
the acting Registrar were unsure how the prior annual inventory was counted—based on the
number of database records, artifact count, or calculated as an object count.

LP has not Fully Developed a Monitoring Program over the V/V Inventory Process: LP does not
periodically verify V/V inventory reports for accuracy or to ensure all requested data has been
provided. While LP requires the annual reports to be submitted to LP, control procedures to
review these reports have not been established. LP has outlined criteria to be included in the
Annual V/V Inventory Report including the following data: (1) point of contact; (2) names of
the staff completing the inventory; (3) inclusive dates of the inventory; (4) summary of inventory
findings including the number of objects inventoried, any unresolved anomalies, V/V items on
loan , of changes to the V/V list; and (5) signatures of senior museum staff and of the Deputy
Director indicating they have reviewed the inventory report. However, only two libraries
submitted all the requested information. The other eleven libraries neglected to mention,
provide, or clearly indicate the status of the requested data. Most importantly, some annual
statements of inventory were missing signatures of those completing the inventory or the person
charged with reviewing the data. Finally, we could not locate two FY 2010 Annual V/V Reports
because they were missing from LP’s files.

Without appropriate management control processes assigned to NARA’s V/V program NARA
risks the loss of its most valued Presidential artifacts.

Recommendation 5
We recommend the Executive for Legislative Archives, Presidential Libraries, and Museum
Services (L) ensure policies associated with Presidential V/V artifacts classification on annual
inventory processes are strengthened by:

   a)	 Clarifying policy concerning what should be classified as a V/V artifact. The policy
       should not attempt to “narrow the focus” of this classification because of additional
       resource needs. Rather, an appropriate list needs to be developed to ensure those artifacts
       requiring additional stewardship measures are included.

   b)	 Developing documentation guidelines that identify the importance of supporting the
       conclusions reported on the annual V/V reports. When counting objects, the support
       documentation should show the same count.




                                                22

                                                                                     OIG Audit Report No. 12-10



     c)	 Developing an annual V/V report format that prompts the preparer of the report to 

         include the requested data.


Management Response

Management concurred with the recommendation.




6. Controls to Safeguard Incumbent Presidential Artifacts Placed in
Courtesy Storage Would Benefit from Improvements
Our audit revealed opportunities exist to strengthen accountability and control over incumbent
White House gifts held in courtesy storage. 26 Competing priorities and a lack of management
oversight prevented LP from ensuring these artifacts are properly safeguarded and accounted for.
GAO Standards for Internal Control in the Federal Government state effective internal controls
include the procedures used to provide reasonable assurance resources/assets are adequately
safeguarded and efficiently used and ensure transactions and events are promptly and accurately
recorded so as to maintain their relevance to management in controlling operations and making
decisions. As a result of these conditions, White House gifts entrusted to NARA are at risk of
loss due to the lack of a sound internal control environment.

We found (a) the LM Registrar has multiple functional roles over the handling of White House
gifts and that these duties needed to be segregated; (b) email documentation from the White
House records used to populate the LM collections database are not maintained; and (c) policies
and procedures for security escort of high-value gift pick-ups have not been established.

The LM Registrar Duties Need to be Segregated: The LM Registrar has multiple functional
roles over the handling of White House gifts which presents her with the opportunity to remove
artifacts without detection. The LM Registrar stated she had the opportunity to remove items in
her care without detection and that more could be done to improve controls to prevent an in­
house theft. The LM Registrar position (1) has undeterred physical access to the museum
artifacts—LM lacks security cameras in the vault and does not have a policy requiring two
people in the vault at all time, (2) maintains the recordkeeping for all incumbent Presidential
artifacts, (3) and one other LM staff member participate in the inventory process, and (4) has the
ability to delete an object record from the artifact database—a system that cannot provide an
audit trail detailing who and when an object record was removed from the system. We discussed
this with the Museum Collections Officer and the Director of LM and; as a result, LM developed
policy changes to mitigate some of the risk associated with the lack of segregated duties. LM
has developed procedures to conduct random spot inventories by archival staff. However, this
mitigating control cannot fully identify an unauthorized removal of an artifact because the LM
Registrar can remove an artifact and its corresponding database record. Until LM re-assigns

26
  During the incumbent Presidential term, Presidential gifts are picked up from the White House by NARA’s
Presidential Material Staff unit (LM) and placed in courtesy storage at Archives I.


                                                      23

                                                                             OIG Audit Report No. 12-10



deletion rights to someone other than the Registrar or the new database system is operational, the
spot inventories will not sufficiently mitigate the risk associated with a lack of segregated duties.
We do applaud LP and LM management for prompt action and believe it is a good control
practice when coupled with an appropriate database system.

Another compensating control LP should consider is an independent reconciliation of LM and
White House records by library personnel charged with the permanent care of the collection.
This compensating control procedure should be considered during the period LM does not have
appropriate management controls segregating the LM Registrar’s duties and would be applicable
to the Bush (43) Presidential (LP-GWB) artifact collection. Senior officials at LP-GWB stated
they were not aware of the segregation of duties risk with the LM process for developing the
collections database records and were under the impression that reconciling White House legacy
records to their completed base-line inventory was not necessary. The LP-GWB Assistant
Deputy Director and Curator agreed the process of reconciling the two sets of records is one way
an unauthorized removal of an incumbent Presidential artifact can be detected and stated they
would complete this reconciliation as a part of their base-line inventory process.

White House Gift Unit (WHGU) transmittal emails used to populate the LM collections database
were not maintained. The LM Registrar electronically receives WHGU records for all gifts
transferred to LM for import into the collections database. After importing the WHGU data, the
LM Registrar reconciles the recently imported WHGU records to LM’s Gift Pick-Up Log and
communicates any noted discrepancies to the WHGU. However, LM does not maintain this
documentation including the electronic WHGU records and the emails documenting noted
discrepancies to the WHGU. The Director of LM stated she was not aware that this
documentation was not retained and agreed that procedures needed to be developed to ensure all
documentation pertaining to WHGU reconciliations to the LM artifact database are maintained.
Prior to the conclusion of our audit, LM presented updated policy changes that included
procedures to ensure documentation of the accounting for transferring Presidential gifts are
maintained. This documentation will provide the subsequent Presidential Library museum staff
with necessary information to ensure Presidential artifacts intended for transfer to NARA was
received.

LM does not use a security escort when picking up high value objects (HVO) White House gifts.
LM does not have procedures in place to use security escort for a HVO and does not use a
security escort for gift pick-up, in general. The LM Director stated if the White House requested
a security escort for a HVO, LM would be able to accommodate the request. Further, the LM
Registrar stated picking up White House gifts without security fanfare is in itself a form of
security as nobody is aware anything valuable is being transported. However, it is our opinion
that HVO White House gifts should have a security escort to ensure the safety of LM staff and to
adequately safeguard the artifact. We discussed this with LP and LM management and they
agreed to meet with the Holdings Protection Team to discuss how to coordinate security escorts
for White House gift pick-ups of HVOs.




                                                 24

                                                                             OIG Audit Report No. 12-10



Recommendation 6
We recommend the Executive for Legislative Archives, Presidential Libraries, and Museum
Services (L) ensure:

    a)	 Separation of duty policies are developed and efforts to minimize the possible
        unauthorized removal of Presidential gifts from courtesy storage with compensating
        controls such as (1) adding security camera in the storage vault; (2) setting policy for
        two-person minimum in the vault at all times; and (3) re-assignment of deletion rights to
        someone that does not have access to Presidential gifts.

    b)	 Reconciliation procedures between the completed inventories and White House legacy
        documentations for both Bush (43) and Obama Administrations as a compensating
        management control until the separation of duties issues at LM are mitigated.

    c)	 Policy is developed for a security escort when picking up HVO gifts from the White
        House for courtesy storage at NARA.

Management Response

Management concurred with sub-recommendations (a) and (c) but did not concur with sub-
recommendation (b). Management stated that an alternate solution will be covered in their
action plan.

OIG Response

The OIG will review management’s alternative solution when the action plan is submitted and
determine if it meets the intent of recommendation 6b above.




7. Audit Visits to Five Presidential Libraries Reveal Opportunities
to Improve Stewardship over Presidential Artifacts
Our audit revealed opportunities exist to strengthen safeguards over Presidential artifacts. We
found (a) controls to limit physical access to Presidential artifacts and prevent theft need
reinforcement; (b) procedures over long-term loans need improvement; and (c) back-up copies of
key inventory documentation are not maintained. These conditions exist because LP has not
established and maintained a proper internal control environment. GAO Standards for Internal
Control in the Federal Government state effective internal controls include the procedures used
to provide reasonable assurance resources/assets are adequately safeguarded. Without
appropriate controls LP cannot ensure Presidential artifacts are properly safeguarded.
The Presidential Libraries we visited were able to account for artifacts listed in the collections
database, and museum personnel we worked with were dedicated to their profession and to the


                                                 25

                                                                             OIG Audit Report No. 12-10



Presidential artifacts entrusted to their care. However, we found the following areas where
improvements are needed:

Controls over the physical access to Presidential artifacts need to be reinforced: According to
NARA guidelines, physical access to Presidential artifacts not on exhibit is limited to authorized
personnel and sufficient controls to deter theft must be in place. We found the following
instances where controls to ensure only authorized staff have access to Presidential artifacts and
to deter theft need improvement:

   •	 LP-JC is storing Presidential artifacts in an area accessible by staff other than authorized
      museum personnel. The Carter Library temporarily moved artifacts to an unrestricted
      storage area to install compact shelving. The installation of compact shelving addressed
      a long-standing storage issue. Space limitations within the museum collection area
      necessitated moving the artifacts to another space while the shelving was being installed.
      Additionally, the temporary location was used as a staging area to more effectively
      inventory and assesses the preservation needs of these objects. To minimize risk, the
      artifacts were moved in two phases and the most vulnerable objects moved back first.
      However, the second phase of artifacts placed in the temporary archival area has not been
      fully inventoried and moved back to the secured museum collections area. Senior
      officials at the Carter Library stated they did not like storing the artifacts in an accessible
      area, but did not have any other viable options. The Director of the Carter Presidential
      Library stated it is a top priority to move these remaining items back to a permanent
      location within the designated museum storage where access is appropriately limited to
      museum staff.

   •	 Three libraries we visited do not have procedures to periodically review access log
      reports and security camera tapes. While security personnel report that they periodically
      review these reports, library personnel at three Presidential Libraries stated they did not
      review these reports to ensure any unauthorized access by security personnel. Security
      personnel do have access to museum storage areas during closing hours and if these
      reports go unchecked unauthorized access by security personnel can occur. One senior
      official stated that in the past they did have a procedure to periodically review the access
      log reports and security camera tapes, but this procedure lapsed when a newly appointed
      Administrative Officer was not informed of this procedure. Senior library officials we
      spoke to during the audit agreed that it is important for library personnel to periodically
      review access log reports and security tapes and agreed to develop procedures to do so.

   •	 We found NARA facility key control programs need reinforcement. During our audit
      visits to five Presidential Libraries we found instances where (1) the listed key custodian
      was not the current key custodian, (2) the latest key inventory was not documented, (3)
      door locks, cabinet combinations, and security access badges were not changed or
      privileges deleted when staff terminated their employment, and (4) issued access badge
      privileges were not always appropriate—i.e. 24/7 access or the level of access was not
      appropriate. Maintaining key control is necessary to ensure access is denied to
      unauthorized persons and theft is deterred. During the audit library personnel corrected
      several of the identified problems prior to the conclusion of the audit visit. Senior


                                                26

                                                                                          OIG Audit Report No. 12-10



           officials agreed they should pay closer attention to security controls aimed at controlling
           access to Presidential artifacts and stated corrective action would take place.

       •	 The LP-JC had several broken security cameras and the Richard Nixon Presidential
          Library (LP-RMN) security cameras could not pan to exhibit areas where highly valued
          artifacts were on display. The Deputy Director at LP-JC stated the library currently does
          not have service a contract in place to fix the cameras and was aware the cameras needed
          repair. Broken or non-functioning cameras impede the ability of security personnel to
          ensure the Presidential artifacts are safeguarded or useful images of security incidents are
          captured to aid any subsequent investigations.

       •	 LP-DDE does not have a procedure to monitor off-hours night security staff to ensure
          they are roving through-out the building. The recently hired Facility Manager stated it
          would not be possible for him to periodically drop-in to monitor whether or not the
          security staff was roving, but consideration of an electronic key pad system that records
          the security guards roving time would be an option. An investigation into a recent break-
          in at the Carter Library revealed that security staff was not roving and this allowed the
          thief to penetrate further into the library before detection by the Carter security guard
          staff. Security guard roving patrols is an essential security practice that deters theft.
          However, without periodic random checks or electronic key pads that record roving times
          LP management cannot be assured roving patrols take place.

Procedures over long-term loans need improvement: We found: (1) several expired artifact loan
agreements; (2) artifacts on long-term loan without current condition assessments—one long-
term loan has been outstanding since 1977 27; and (3) artifacts on loan without current photos on
file. NARA 1612 guidance states loan periods greater than one year are “allowed provided the
Custodial Unit reviews the loan annually” which includes updates on the condition of the artifact
and recently drafted policy on photo standards identified “outgoing loans must be photographed
sufficiently to record details and distinguishing features and marks for confident comparison
with future/past images.”

In all cases, LP museum staff had requested an annual update of the loan agreement, but had not
received the signed agreement from the borrowing institution. Updated agreements are legal
documents intended to protect both parties by specifying the terms and conditions of the
agreement. Without an updated agreement, LP cannot be assured the conditions for lending have
been met including such issues as insurance and current condition of the artifact. Further,
without a photo on file representing the artifact, it will be difficult to determine whether the item
loaned is the item returned.

Both the Museum Collections Officer and the Curator at the Eisenhower Library stated long-
term loans (1) establish collaborative efforts with other museums, (2) creates an opportunity for
the public to access artifacts that otherwise would be in storage, and (3) allows LP to maintain
legal ownership which ensures future generations will have access to the item. However, LP
cannot ensure the items on long-term loan for decades have been adequately cared for. Thus, LP
needs to consider establishment of time caps on long-term loans or periodically request
27
     LP-DDE has a long-term loan of golf clubs to the Culzean Castle in Scotland since 1977.


                                                          27

                                                                               OIG Audit Report No. 12-10



temporary return of the item to allow for condition assessment. The Curator at the Eisenhower
Library agreed that LP should periodically request return of the item for proper care.

Back-up copies of inventory documents are not maintained: We found two instances where key
inventory documentation is not adequately maintained in duplicate to ensure the data is not
permanently lost. Both old White House legacy documentation at LP-DWE and handwritten
logs for recent artifact acquisitions received from the Carters at LP-JC are not maintained in
duplicate.

The Curator at the Eisenhower Library stated he was concerned about the possibility of losing
the White House legacy documentation composed of several hand-written ledger books and
would like to see the data copied to ensure against permanent deterioration. The handwritten
inventory records for recent artifact acquisitions at the Carter Library are not maintained in
duplicate and are not secured from unauthorized access. These handwritten logs are placed on a
shelf next to the artifacts listed. Both the artifacts and the lists are located in a temporary storage
area where access has not been restricted to museum personnel only. The Carter Registrar stated
that if someone took an item and the list there would be no way to account for the missing item.
Records documenting artifact inventory need to be maintained in duplicate and secured to ensure
irreplaceable data is not lost. Senior officials we interviewed during the course of the audit
agreed that measures should be taken to duplicate these documents to ensure they are not
permanently lost.

Recommendation 7
We recommend the Executive for Legislative Archives, Presidential Libraries, and Museum
Services (L) ensure:

   a)	 Policies and procedures are clarified and re-iterated to library personnel concerning (1)
       sequestration of museum artifacts from library personnel other than museum personnel;
       (2) procedures to periodically review access logs and security camera tapes to ensure the
       museum collections storage areas from unauthorized access by security personnel or
       other persons; (3) key control programs are appropriately maintained; (4) security
       cameras are operational and are appropriately focused on high-value object; and (5)
       procedures to monitor off-hours night security guard staff to ensure roving patrols are
       being completed according to the security contract.

   b)	 Policies and procedures for Presidential Library artifacts on long-term loan are re-iterated
       and disseminated to library personnel concerning (1) the annual update of loan
       agreements and (2) requirements for long-term loans including photo requirements and
       annual condition assessments. Further, LP should either establish time caps on long-term
       loans or periodically request temporary return of the item for condition assessments.

   c)	 Re-iteration of NARA policy to adequately back-up inventory-related collection

       documentation.





                                                  28

                                                                                           OIG Audit Report No. 12-10



Management Response

Management concurred with the recommendation.



8. Museum Policies and Procedures need Comprehensive Update
LP does not have a current comprehensive set of policies and procedures to address collections
management for Presidential artifacts. The Museum Collections Officer stated she is “acutely
aware” of the need to update LP’s policy regarding museum collections, but competing priorities
have impeded progress necessary to initiate and complete revisions. GAO Standards for
Internal Control in the Federal Government require the development of detailed policies,
procedures, and practices to fit their agency’s operations necessary to achieve the desired results
that support effective stewardship of public resources. Without a current set of comprehensive
collection management policies and procedures NARA cannot be assured LP personnel are
providing adequate stewardship over Presidential artifacts.

While Libraries 140128 does set forth policy guidelines for the operation of Presidential Libraries
it does not (1) adequately delineate specific policies designed to address the complex and unique
processes associated with museum operations and activities and (2) include accompanying
procedures—the detailed instructions that specify how museum staff should apply the policy in
their museum related day-to-day activities. Further, Libraries 1401 is not current and has not
been officially updated since 1998. The American Association of Museums (AAM) 29 states a
comprehensive collections management policy (1) ensures that the museum fulfills its
obligations to protect, manage, provide access to, and maintain intellectual control over its
collections and their associated records; (2) must be reviewed and revised on a regular basis; and
(3) is useless if it is outdated and ignored.

We do acknowledge the efforts LP has put forth to correct this deficiency, but would direct
senior officials to appropriately prioritize and provide resources to accomplish a timely policy
and procedure update. A current comprehensive set of collections management policies and
procedures will demonstrate NARA’s commitment to professional standards and practices
necessary for adequate stewardship over Presidential artifacts.




28
   Libraries 1401 are LP’s policy guidelines for the operation of Presidential libraries in terms of administrative,

professional, and technical matters.

29
   The AAM organization is a non-profit association with a mission to strengthen museums through leadership,

advocacy, collaboration and service by developing standards and best practices, gathering and sharing knowledge,

and advocating on issues of concern to the museum community. The AAM Accreditation program is a widely

recognized seal of approval that brings national recognition.



                                                          29

                                                                           OIG Audit Report No. 12-10



Recommendation 8
We recommend the Executive for Legislative Archives, Presidential Libraries, and Museum
Services (L) ensure:

   a)	 An updated comprehensive set of museum collection management policies and
       procedures are developed.

   b)	 Establish procedures to periodically review, and if necessary, revise said policies and
       procedures.

Management Response

Management concurred with the recommendation.




                                               30

                                                                                 OIG Audit Report No. 12-10



Appendix A – Percent of V/V Collection Photographed


             Table 8 30: Percent of V/V Collection Photographed by Library

             Library                           # of V/V           # of V/V     Percent of V/V
                                               Artifacts          Artifacts      Artifacts
                                                                Photographed   Photographed
             Hoover                                265               265           100%
             Roosevelt                            1,195              150            12%
             Truman                                140                12             8%
             Eisenhower                            795                35             4%
             Kennedy                               192                 0             0%
             Johnson                               361                87            27%
             Nixon                                 185               185           100%
             Ford                                  231               190            82%
             Carter                                 73                47            64%
             Reagan                                427               427           100%
             Bush (41)                             285               285           100%
             Clinton                               255               150            74%
             Bush (43)                             196               196           100%
             TOTALS                               4,600             2,029          44%




30
     Table 8 reflects data received as of June 2012.


                                                           31
                                                                                      OIG Audit Report No. 12-10




Appendix B – Exhibit 1: Preservation and Curatorial Ranking


Artifact Risk Assessment Definitions and Decision Matrix
Presidential Library Holdings

1) Background

The artifact risk assessment used by the Presidential Libraries allows NARA to determine preservation
needs and prioritize preservation work. The risk assessment process provides a standardized procedure
to identify those artifacts requiring preservation actions such as re-housing and conservation treatment.
The “iO” computerized management system used to inventory, document and track the LP artifact
holdings is also used to collect the information necessary for risk assessment. The level of risk will be
determined based on a matrix external to iO that links the artifact curatorial/ use priority with the
preservation needs of the artifact.

2) Artifact Condition

Within “iO”, the current condition of an artifact is documented using both the “New Condition” field and the
“Summary” field. The “New Condition” Field uses the terms excellent, good, fair, poor, and unstable to
document the current condition of the artifact. These terms are defined as follows:

    •	   Excellent: Like new condition. For some medals, coins and other artifacts, the object may show
         an even patination from age.
    •	   Good: Structurally and aesthetically intact with only minor signs of wear, use or natural aging and
         deterioration. No physical damage.
    •	   Fair: Structurally intact but with visible evidence of use and/or some accumulated damages. The
         damages do not significantly alter the object’s structural stability or appearance. The object may
         benefit from minor treatment before exhibit, loan or research.
    •	   Poor: Object shows structural insecurity, loss of elements, or significant alteration in appearance
         due to use, age, or inherent vice. Treatment is generally required before the object can be used
         for exhibit, loan or research. Required treatment is often extensive. For some objects, no action is
         available to reverse the damage or loss.
    •	   Unstable: Object is actively deteriorating and is at risk for additional damage or loss of material
         without conservation treatment.

In addition to the initial entry in the New Condition field, new entries are made when:

    •	   The original condition has changed, or the object has been damaged. (If there is disagreement
         with the initial entry, dated comments are entered into the initial entry; a new entry is not created.)
    •	   When a conservator examines that object.
    •	   When the object is condition-reported prior to loan or exhibit.
    •	   If there is a change to the item’s condition post-loan or post-exhibit.
    •	   When an object is treated.

The “Condition Summary” field is a comment box that provides specificity to the “New Condition” field. A
brief description of the current damage or an apparent vulnerability can be described in this field.

3) Preservation Actions/Priorities




                                                      32

                                                                                       OIG Audit Report No. 12-10



The preservation action(s) required to address any damage or vulnerability noted in the Condition field is
documented using the “Treatment Priority” field. Note that more than one preservation action may be
entered for an artifact; an object may require storage re-housing as well as conservation treatment.

    •	    Urgent (Immediate Risk of Loss): The object is in immediate danger of additional damage and
          cannot be used until conservation treatment has been carried out. Examples of urgent conditions
          may include flaking surfaces, active metal deterioration, active mold or infestation, or active
          effervescence. This code can be used with either minor or major treatment, to highlight urgency.
    •	    Major Treatment: Significant treatment requiring a conservator and often requiring transporting
          the object to a conservation lab. The treatment is required to repair damage and possibly to
          prevent future damage. Examples might include a torn painting canvas, a vessel broken into
          multiple pieces with parts missing, or and shredding textile.
    •	    Minor Treatment: Treatment to repair an object that requires limited time to complete. A
          conservator may be able to undertake the work on-site. Example might include a ceramic with a
          simple break or minor surface disfiguration that requires in-painting or toning. Certain actions
          such as surface cleaning or sculpture maintenance may be carried out by collection care staff
          after they receive training by a conservator.
    •	    Storage/ Exhibit Improvements: New custom housing, storage containerization, or furniture is
          required to safely house the object. A new exhibit mount, lighting upgrades or other
          improvements in environmental conditions are required to display the object safely.
    •	    Examination: Additional in-depth examination is required by a conservator.
    •	    No Preservation Action: No Preservation Action is required at this time.

4) Curatorial Priority:

The curatorial priority takes into account the current or anticipated level of use for an artifact as well as its
historical, cultural and/or monetary value. The six Curatorial Priority designations are defined as follows.

• Highest Priority: Artifacts of exceptional historical, cultural and/or monetary value, or possessing
extraordinary uniqueness. Very likely to be used exhibits, loans, or research. A national treasure and/or
so valuable it cannot be replaced. High value items explicitly identified with the President, his
administration, a key figure or event, or explicitly associated with the Library. Examples may include:

    1) High value items associated with the President, his family, his administration or a particularly
        significant or meaningful person or event.
    2)	 High profile items directly associated with the President or his administration.
    3)	 Head of State and other gifts which bear special association with an extraordinary event.

• High Priority: Artifacts of significant historical, cultural and/or monetary value. Good potential for use in
exhibits, loans or research. Usually directly associated with the President, first family or associates, or
with a key figure or event in his life or administration. Examples may include:

    1)	Items directly associated with the President but not necessarily also of high monetary value.
    2)	Artifacts representing a significant event during the President’s life or administration.
    3)	Artifacts associated with the First Lady or other close family members or associates.
    4)	Items not directly associated with the President but which are significant to the Library, such as
       special collections.
    5) Selected items from the gifts of the American people displaying exceptional craftsmanship,
       uniqueness or presentational impact.

• Medium Priority. Artifacts of some historical, cultural and/or informational significance and/or moderate
monetary value (if a value can be defined). Potential for use in exhibits, loans, or research. Examples
may include:

     1)	 Items believed to have some association with the President, his family or administration, but
         without documentation.


                                                       33

                                                                                   OIG Audit Report No. 12-10



     2) Gifts from significant individuals.
     3) Items typifying the time period of the President.
     4) Artifacts representing an important national or international event not directly related to the
        President.
     5) Gifts displaying notable craftsmanship, uniqueness, or presentational impact.

    • Low Priority. Artifacts of low intrinsic and/ or monetary value, but with some potential for use for
    research purposes, education/demonstration purposes, or as backups for heavily used parts of the
    collection or a number of similar artifacts from which a sample may be retained. Examples may
    include:

         1) Duplicate mass produced items

• De-accession Candidate. No potential for use. Object appears to meet one or more criteria for disposal
established by the Draft LP Disposal Guidance on Presidential Gifts, 1998, III.1. In summary:

     1) Artifact lacks sufficient significance or usefulness to merit retention in the collection.
     2) Artifact lacks physical integrity, and/or the expense of conservation is not warranted by the
        significance of the item, and/or it presents a physical hazard to the rest of the collection.
     3) Artifact is redundant or a duplicate that does not add to the value of a series.
     4) The Library does not hold a lawful possession of the object.

Examples may include:

     •   Unsolicited gifts without any association to the holdings.
     •   Incomplete or badly damaged items with poor provenance, or prone to rapid deterioration.
     •   Repeat items, where retention of a sample is sufficient.
     •   Legal council has determined the object should be returned to its lawful owner.

• Unknown. Additional research is required to assign a curatorial priority code.

5) LP Artifact Risk Ranking Matrix

The risk status for Presidential library artifacts will be determined based on the
Preservation Action (Treatment Priority) Code(s) and the Curatorial Priority Code. As
indicated under the definitions, both the Preservation Actions and the Curatorial
Priority have been given a number code ranging from 5 to 0. These number codes are
assigned as follows.


 Preservation Actions Numerical Codes
                     5                                        Urgent
                     4                                   Major Treatment
                     3                                   Minor Treatment
                     2                             Storage/Exhibit Improvements
                     1                                       Examine
                     0                                No Preservation Action
 Curatorial Priority Numerical Codes
                     5                                    Highest Priority
                     4                                     High Priority
                     3                                    Medium Priority
                     2                                     Low Priority
                     1                                De-accession Candidate
                     0                                More Research Needed




                                                     34

                                                                                  OIG Audit Report No. 12-10




The Matrix for assigning the risk ranking follows, using the codes for ease of execution. Artifacts risk for
immediate loss or accelerated deterioration will be flagged for “immediate loss” if they are of Highest, High,
Medium, or Low Curatorial Priority. Candidates for de-accession will not be flagged at risk for immediate loss.



                                        LP Artifact Risk Ranking Matrix
           Risk Level                          Preservation Action                Curatorial Prioritization
 Immediate Risk of Loss                  5, or 5 combined with any other                  5,4,3,2,
                                                        value
 High Risk                                            4,3,2,1
                                                or any combination                           5,4
                                                      thereof
 Medium Risk                                           4,3,2,1
                                                or any combination                             3
                                                      thereof
 Low Risk                                             ,4,3,2,1
                                                or any combination                            2
                                                      thereof
 No Preservation Action Needed At                    5,4,3,2,1
 This Time                                      or any combination                            1
                                                      thereof
                                                          0                               5,4,3,2,1,0
 Assessment not complete                             5,4,3,2,1
                                                or any combination                            0
                                                      thereof


Preservation work on medium and low risk records may occur prior to work on high-risk artifacts. Examples of
reasons for persevering preservation actions on medium or low risk artifacts in advance of artifacts with a higher
risk level may include, but are not limited to:

    •   Part of Inventory Project
    •   Exhibition or Loan
    •   Available Resources
    •   Researcher Request
    •   Special Project




                                                    35

                                                                   OIG Audit Report No. 12-10




C – Acronyms and Abbreviations

AAM      American Association of Museums
BX       Security Management
FIC      Found In Collection
FY       Fiscal Year
GAGAS    Generally Accepted Government Auditing Standards
GAO      Government Accountability Office
HVO      High Value Object
NARA     National Archives and Records Administration
L        Legislative Archives, Presidential Libraries, and Museum Services
LP       Office of Presidential Libraries
LM       Presidential Materials Staff
LP-DDE   Dwight D. Eisenhower Library
LP-FDR   Franklin D. Roosevelt Library
LP-GB    George Bush Library
LP-GRF   Gerald R. Ford Library & Museum
LP-HH    Herbert Hoover Library
LP-HST   Harry S. Truman Library
LP-JC    Jimmy Carter Library
LP-JFK   John F. Kennedy Library
LP-LBJ   Lyndon Baines Johnson Library
LP-RMN   Richard M. Nixon Library
LP-RR    Ronald Reagan Library
LP-WJC   William J. Clinton Library
OIG      Office of Inspector General
PLA      Presidential Libraries Act
RX       Preservation Programs
V/V      Valuable and Vulnerable Artifact
WHGU     White House Gift Unit




                                        36

                                                                                                             OIG Audit Report No. 12-10





Appendix D – Management’s Response to the Report 




     ~NATIONAL
      ARCHIVES



     Date.              AUG I 6 2012
      To:                       Paul Brachfeld. Inspector General
     From·                      DavidS. Ferriera, Archivist of the Un~ed States
     Subject                    OIG Report 12·10, Follow-up Review of Audit Report 06-01 , Audn of lhe Process of
                                Safeguarding and Accounting for Presidential At1ifacts



     Thank you for the opportunity to comment on lhis revised draft audrt report. We appreciate the eWorts of the
     auditors throughout this process and :he willingness of OIG staff to meet and work wllh us to clariy portions
     or lhis draft report.

      We wncur with an but one of tht! lt1'CVITiflltmcJaliOtl::t &!l d have a lrea<Jy begun to fmplement several
     recommendations. We are also writing an action plan contaimng more specifics about how we v.UI implement
     these and will continue to enhance accountability and control of artifacts in d'le Presidentiallibranes.

     We do not concur wilh Recommendaiion 6.b. While a valuable historic reference, the Gift Office database IS
     not a reliable, complete, or legally binding record of wllat is finally received Into NARA's legal cus:ody at lhe
     end of a President's tenn. Thus, it is not among the legacy records that are reoonciJed with NARA inventoty
     results. Alternate solutions will be C01tered In our action plan.

      If you have any questions about lhis response. please contact Mal'{ Orak at 301-1137-1668 or at
      mary drak@nara.gov




   ~!.~
      Archivist or the United States




     1'\:o\ 1 hlNAI All\ Ill VI' 1111J
     II. l ! ll 11\ A,l"l.'v\11\;l\1 I= ,\llllr-;

          ~~~tll   .\Oilllll lllfl•\11
     \\lll.lli•    r\R~     M1"110;llll•l'<ll
              "II II'   lrdllf(J $~1'




                                                                      37 

                                                                        OIG Audit Report No. 12-10



Appendix E - Report Distribution List

Archivist of the United States
Deputy Archivist of the United States
Chief Operating Officer
Management Control Officer, Performance and Accountability
Director, Legislative Archives, Presidential Libraries and Museum Services




                                              38

